              OFFICE OF
       THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION

THE DISTRICT OF COLUMBIA’S CHILD AND FAMILY
    SERVICES AGENCY, AN ORGANIZATIONAL
       REPRESENTATIVE PAYEE FOR THE
      SOCIAL SECURITY ADMINISTRATION

         March 2012   A-13-11-11149




  AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      March 2, 2012                                                     Refer To:

To:        Frederick M. Maurin
           Acting Regional Commissioner
            Philadelphia

From:      Inspector General

Subject:   The District of Columbia’s Child and Family Services Agency, an Organizational
           Representative Payee for the Social Security Administration (A-13-11-11149)


           OBJECTIVE
           Our objectives were to determine whether the District of Columbia’s (DC) Child and
           Family Services Agency (CFSA), a representative payee for the Social Security
           Administration (SSA), (1) had effective safeguards over the receipt and disbursement of
           Social Security benefits and (2) used and accounted for Social Security benefits in
           accordance with SSA’s policies and procedures.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because of
           their youth and/or mental or physical impairments. Congress granted SSA the authority
           to appoint representative payees to receive and manage these beneficiaries’
           payments. 1 A representative payee may be an individual or an organization. SSA
           selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI) 2
           and/or Supplemental Security Income (SSI)3 beneficiaries4 when representative



           1
            Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii)(I); 42 U.S.C. §§ 405(j)(1)(A) and
           1383(a)(2)(A)(ii)(I).
           2
            The OASDI program provides benefits to qualified retired and disabled workers and their dependents as
           well as to survivors of insured workers. Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           3
            The SSI program provides payments to individuals who have limited income and resources and who are
           age 65 or older, blind, or disabled. Social Security Act §1601 et seq.; 42 U.S.C. 1381 et seq.
           4
             We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
           recipients.
Page 2 - Frederick M. Maurin


payments would serve the individual’s interests. 5 Representative payees are
responsible for managing benefits in the beneficiary’s best interest. 6 See Appendix B
for additional representative payee responsibilities.

CFSA is an organizational representative payee. A local government agency, CFSA is
DC’s public child welfare agency. CFSA is responsible for protecting child victims and
children at risk of abuse and neglect and assisting their families.

During our audit period, October 1, 2009 to September 30, 2010, CFSA served as
representative payee for 231 beneficiaries. Of the 231, we selected a sample of
50 beneficiaries for review. During our audit, we determined the payee received
approximately $236,700 in Social Security benefits for the 50 beneficiaries. See
Appendix C for the scope and methodology of our review.

RESULTS OF REVIEW
CFSA had effective safeguards over the disbursement of Social Security benefits and
used those benefits in accordance with SSA’s policies and procedures. However,
CFSA did not have adequate safeguards over benefit receipts, and it did not adequately
account for Social Security receipts in accordance with SSA’s policies and procedures.
Specifically, we found CFSA did not

•     promptly report changes in beneficiaries’ circumstances to SSA (in some instances,
      CFSA did not return the related overpayments);
•     apply to serve as representative payee timely;
•     have adequate safeguards over beneficiary receipts; or
•     have an appropriate bank account title.

REPORTING CHANGES TO SSA

CFSA did not promptly report changes regarding its beneficiaries to SSA. Specifically,
CFSA did not notify SSA when (1) children were receiving concurrent SSI and Title IV-E
benefits, 7 (2) children in its care did not receive Social Security benefits, (3) children
were no longer in its care, and (4) children were in a facility where Medicaid paid more
than 50 percent of the cost of care.

According to Federal regulations, a representative payee has the responsibility of
notifying SSA about any change that will affect its performance as a representative

5
    20 C.F.R. §§ 404.2001 and 416.601.
6
    20 C.F.R. §§ 404.2035(a) and 416.635(a).
7
  42 U.S.C. § 670 provides authorization for appropriations, in part for the purpose of enabling each state
to provide foster care, in appropriate cases.
Page 3 - Frederick M. Maurin


payee. 8 Also, Federal regulations state a representative payee has a responsibility to
notify SSA of any event or change that will affect the amount of benefits received, the
right to receive benefits, or how benefits will be received. 9

Children Who Received Concurrent SSI and Title IV-E Benefits

CFSA did not report to SSA that 29 beneficiaries for whom it served as payee during
our audit period were also receiving Title IV-E benefits. Of the 50 beneficiaries in our
sample, 8 were receiving concurrent SSI and Title IV-E benefits. We subsequently
reviewed the remaining beneficiaries in CFSA’s care and identified an additional 21 who
were receiving concurrent SSI and Title IV-E during our audit period.

Agency policy states, “Title IV-E provides for Federal matching funds to States for foster
care under certain circumstances.” 10 SSA policy also states that, if the source of
payments for an individual’s care is federally funded income based on need (for
example, foster care under Title IV-E), the total payment is considered cash income to
the individual, and the SSI payment is reduced dollar for dollar. 11

CFSA did not adequately monitor children receiving both benefits. We discussed with
CFSA staff why it did not report the Title IV-E benefits to the Agency. On
October 7, 2011, staff stated they developed a new internal process to identify Social
Security beneficiaries who are also Title IV-E eligible. Staff further stated that if children
received concurrent benefits, CFSA will repay the overpayments to SSA in a timely
manner. SSA should verify that CFSA implemented this new process.

We provided information about the SSI overpayments to SSA, which had completed its
reviews for 28 of the 29 beneficiaries we identified. SSA determined 1 beneficiary was
not overpaid, and 27 beneficiaries were overpaid $159,626 in SSI payments for our
audit period. SSA did not provide information about its assessment of the remaining
beneficiary. Agency staff explained that once overpayments are posted to the
beneficiaries’ records, SSA will perform due process 12 by providing beneficiaries the
opportunity to dispute the overpayments. As noted above, CFSA plans to reimburse
SSA for any overpayments. Furthermore, overpayments may have occurred before and
after our audit period. On November 18, 2011, SSA staff reported the Agency intends
to re-examine the 29 instances involving Title IV-E payments. As of December 1, 2011,
SSA had not provided us any additional information on the 29 instances in which
children were receiving concurrent Title IV-E and SSI payments.

8
    20 C.F.R. §§ 404.2035(f) and 416.635(f).
9
    20 C.F.R. §§ 404.2035(d) and 416.635(d).
10
     SSA, POMS, SI 00830.410 B.2.a (July 31, 2003).
11
     SSA, POMS, SI 00835.706 C.5 (March 17, 2003).
12
  The Agency has long maintained a policy of protecting a beneficiary's right to due process before taking
any adverse action affecting benefits. SSA, POMS, DI 40515.001 (February 26, 2010).
Page 4 - Frederick M. Maurin


Social Security Payments Not Received

Although CFSA served as representative payee, it did not report to SSA that it did not
receive benefit payments for eight beneficiaries. CFSA served as payee for eight child
beneficiaries but did not receive the benefit payment for these children during our audit
period. As a result, we estimate SSA paid $27,115 from October 1, 2009 to
September 30, 2010 to others 13 instead of paying CFSA as the children’s payee.

For one beneficiary in our sample, SSA did not timely update all its records to reflect
CFSA’s appointment as payee. SSA selected CFSA as representative payee for the
beneficiary on October 21, 2009. SSA updated the beneficiary’s OASDI record to
reflect the new payee; however, SSA did not update the beneficiary’s SSI record until
May 26, 2010. As a result, we estimate SSA paid $5,392 in SSI payments to the former
payee from November 2009 through June 2010. CFSA completed an annual
Representative Payee Report (RPR) 14 for this beneficiary and showed how it used the
OASDI and SSI benefits for the reporting period November 1, 2009 through October 31,
2010 despite not actually receiving the SSI payments. CFSA officials were not aware
that they did not receive the SSI payments until we brought it to their attention.

We also found an additional seven beneficiaries outside our audit sample for whom
CFSA did not receive Social Security benefits while serving as representative payee.
For example, SSA selected CFSA as the representative payee for a beneficiary in
September 2007; however, CFSA did not receive the child’s disability or SSI benefits.
Instead, SSA deposited the child’s benefits into a bank account that did not belong to
CFSA for at least 3 years. CFSA completed three RPRs15 for this beneficiary and
reported how it used the OASDI and SSI benefit payments, even though it had not
received the benefit payments. SSA paid $5,016 in OASDI and SSI benefits for this
beneficiary from October 1, 2009 to September 30, 2010. Again, CFSA officials were
unaware that they did not receive the OASDI and SSI payments until we brought it to
their attention. SSA subsequently referred this instance to our Office of Investigations
for further review.




13
  In six of eight instances, Social Security sent the benefits to the former payees; however, in two of eight
instances SSA deposited the payments into bank accounts that did not belong to CFSA.
14
  The RPR is intended to assist SSA in determining how the payee spent and/or saved benefits on a
beneficiary’s behalf, and identify situations where representative payment may no longer be appropriate
or the payee may no longer be suitable. SSA, POMS, GN 00605.001 B.1. (November 7, 2008).
15
     CFSA completed three RPRs for the reporting periods October 1, 2007 through September 30, 2010.
Page 5 - Frederick M. Maurin


Table 1 shows the benefits we estimate SSA did not pay to CFSA while it served as
representative payee.

                         Table 1: Benefits Not Paid to CFSA
                         (October 1, 2009 to September 30, 2010)
         Months
      Benefits Not        Number of                                 Benefits Not
      Paid to Payee      Beneficiaries       SSI        OASDI       Paid to Payee
               12              2            $ 8,747     $ 3,684        $ 12,431
           4 to 8              4             13,980           -          13,980
               1               2                704           -             704
      Totals                   8           $23,431       $3,684         $27,115

There may be additional benefits that should have been, but were not, paid to CFSA
outside our audit period.

CFSA did not adequately coordinate the monitoring of receipts for each beneficiary.
Monthly benefits SSA paid are recorded for each child beneficiary in a spreadsheet and
in CFSA’s automated accounting system. CFSA records monthly expenditures made
on behalf of each child in FACES—the DC Statewide Automated Child Welfare
Information System. Had CFSA compared receipts to disbursements recorded in these
systems, it could have known it did not receive all Social Security payments.

We discussed the payments with CFSA staff. In October 2011, staff stated CFSA had
developed and implemented a process to monitor Social Security payments. CFSA will
alert SSA of instances when it does not receive Social Security payments. SSA should
verify whether CFSA implemented this new process.

We discussed CFSA’s not receiving payments with SSA staff. Of the eight beneficiaries
we identified, SSA had stopped the payments for five before our review. SSA reported
it was reviewing payments CFSA did not receive for these beneficiaries.

For the remaining three beneficiaries, we requested SSA stop sending payments to
bank accounts that did not belong to CFSA. SSA subsequently suspended payments
for two beneficiaries and referred the matter to our Office of Investigations for further
review. On October 4, 2011, the Agency reported it was reviewing the payments for the
remaining beneficiary. As of October 24, 2011, the Agency was not issuing the
beneficiary’s payments to CFSA—the payee serving the beneficiary.

Children No Longer in CFSA’s Care

CFSA did not timely notify SSA when beneficiaries left its care. We identified
14 beneficiaries who had left CFSA’s care. Based on CFSA’s records, CFSA did not
timely report these events to SSA for 11 of 14 beneficiaries. CFSA did not notify SSA
that it was no longer serving as representative payee until 2 or more months after the
11 beneficiaries left its care. Also, in two instances, CFSA did not have any
Page 6 - Frederick M. Maurin


documentation indicating when it notified SSA that the children were no longer in its
care. Since SSA was unaware of these changes, it continued making payments to
CFSA on behalf of these 14 children.

We estimated CFSA received about $28,809 for the 14 children from October 1, 2009 to
September 30, 2010 after they left its care. As of July 2011, CFSA returned the Social
Security payments of 1 beneficiary to the Agency but not for the other 13.

We found 10 beneficiaries in our audit sample of 50 beneficiaries had left the payee’s
care. Of these, CFSA took 2 months or longer to notify SSA about this event for seven
beneficiaries.

Also, CFSA received benefits for four more beneficiaries outside our audit sample who
were no longer in its care. For example, SSA selected CFSA as representative payee
for two siblings on February 1, 2002. The children were adopted and left CFSA’s care
on September 15, 2004. However, CFSA did not notify SSA of the event until
October 8, 2010—approximately 6 years after the children left its care. As a result, we
estimate CFSA was overpaid about $6,000 in SSI payments during our audit period.

See Table 2 for more information about CFSA’s reporting of beneficiaries who left its
care.

         Table 2: CFSA Notification to SSA About Beneficiaries Leaving Its Care
                               (October 1, 2009 to September 30, 2010)
       Months to Notify
       SSA After Child                                                            Estimated
        Left CFSA’s            Number of         OASDI            SSI           Payments Not
           Care 16            Beneficiaries       Paid            Paid        Paid to New Payee

             Less Than 2           1                   -            $ 674               $ 674
                   2 to 4          5               $ 484            5,257               5,741
                  6 to 24          2                   -            8,627               8,627
                 48 to 72          4               6,834            2,487               9,321
            No Record of
            Notification 17        2                    -           4,446               4,446
                   Totals          14             $7,318         $21,491             $28,809

More overpayments may have occurred outside our audit period.




16
     Time calculations were based on CFSA’s records.
17
  Payee could not locate evidence it notified SSA about beneficiaries leaving its care. CFSA continued
receiving one beneficiary’s payments for 6 months; and the other beneficiary’s payments for 1 month.
Page 7 - Frederick M. Maurin


In March 2011, CFSA had repaid SSA $2,696 it had received for one beneficiary in our
sample. As of July 2011, we estimated $26,113 in overpayments for 13 beneficiaries
was outstanding. During our review, we asked CFSA why it had not repaid the
remaining overpayments. CFSA staff stated the payee was waiting for SSA to provide
the final overpayment amount due for the beneficiaries before reimbursing SSA.

CFSA did not have an adequate process in place for returning overpayments to SSA.
As a result, CFSA generally did not return Social Security benefits. SSA’s policy states
that the representative payee should turn over any conserved funds or unused benefits
to SSA when services as a payee terminate. 18

In October 2011, CFSA staff stated that the payee developed and implemented a
process to periodically review the status of each beneficiary in its care. In addition, the
official stated that CFSA would review payments for children no longer in its care and
return overpayments to SSA in a timely manner. On October 4, 2011, SSA staff stated
they were reviewing payments for the 13 beneficiaries no longer in the care of the
payee for whom CFSA had not returned the Social Security payments.

In addition to these 14 instances, SSA previously found 2 instances in which CFSA did
not notify SSA timely when the children left its care. Specifically, two children left
CFSA's care in 2001 and 2003, respectively. However, SSA was not notified until 2007
and 2008, respectively. SSA recorded these two instances as misuse in its
Representative Payee System (RPS). 19 SSA policy requires that misuse be reported to
the Office of the Inspector General. As of September 22, 2011, SSA records indicated
the misuse of $47,066 in payments that remained payable for these two children. On
October 4, 2011, SSA staff stated they were determining the appropriate classification
for these two situations.

Children in Facilities Paid for by Medicaid

The payee did not report to SSA that two beneficiaries it served had Medicaid 20 paying
more than 50 percent of the cost of services provided to the individuals. CFSA had
minimal expenses recorded for the same period the two children were in a treatment
facility. 21 Upon further review, we found both beneficiaries received SSI payments for
these periods and were in the facility for a period of longer than 30 days. CFSA
informed us that Medicaid paid more than 50 percent of the cost of services provided to

18
     SSA, POMS, GN 00502.113 C.1. (January 30, 2009, updated October 13, 2011).
19
  RPS is the integrated system used to process payee applications, query payee performance, process
mass change actions, document misuse determinations, document any significant information about the
payee, and document reasons for payee appointment or non-appointment. SSA, POMS, GN 00502.120
(November 21, 2005).
20
  Title XIX of Social Security Act, known as Medicaid in most States, provides Federal cost sharing for
each State’s medical assistance program. SSA, POMS, SI 01715.001 B. (November 15, 2001)
21
     According to CFSA, these beneficiaries were in residential treatment facilities.
Page 8 - Frederick M. Maurin


the children. SSA’s policy states if Medicaid is paying more than 50 percent of the cost
of services provided, the maximum Federal payment is reduced to $30 per month. 22
CFSA did not adequately monitor the SSI payments for beneficiaries for whom it served
as payee who were in facilities for longer than 30 days and for whom Medicaid had paid
more than 50 percent of the cost of services. As a result, we estimate CFSA was
overpaid approximately $4,748 between October 1, 2009 and September 30, 2010. In
addition, the beneficiaries were in the facilities for periods outside our audit period.
Therefore, additional overpayments may have occurred.

We discussed the two beneficiaries in facilities paid by Medicaid with SSA and CFSA
staff. As of October 4, 2011, SSA staff reported it was reviewing the two instances we
identified. On October 7, 2011, CFSA staff stated CFSA had developed and
implemented a placement change reporting process that allowed CFSA to report
changes to SSA in a timely manner, including the placement of beneficiaries in facilities.
In addition, CFSA is to alert its Fiscal Office about the status of SSA beneficiaries
placed in facilities to ensure the appropriate adjustment of beneficiaries’ payments.
SSA should verify that CFSA implemented these changes.

SELECTION AS PAYEE

During our review, we found that in 10 instances, children were in CFSA’s care several
months before its selection as representative payee. As a result, the former payees
received the Social Security benefit payments while the children were in CFSA’s care.

We estimate that during our audit period, approximately $17,421 was paid to former
payees for 8 of the 10 children who were in CFSA’s care before its appointment as
representative payee. Of the eight children, four had been in CFSA’s care for at least
8 months. In one instance, the child was in CFSA’s care for 6 years before it was
selected as representative payee. Table 3 shows the amount of benefits paid to former
payees for our audit period.

        Table 3: Timeliness of CFSA Selection to Serve as Representative Payee
       Number of Months Child in                                                Total Benefits
          CFSA's Care Before            Number of                               Paid to Former
         Selection as Payee 23         Beneficiaries       SSI      OASDI          Payees
            Greater Than 12                 2            $ 5,906     $ 180           $ 6,086
                   8-10                       2            5,883            -           5,883
                    1-3                       3            4,778            -           4,778
               Less Than 1                    1              674            -             674
      Totals                                  8         $17,241        $180          $17,421



22
     SSA, POMS, HI 00815.015 B. (February 21, 2008).
23
  We calculated the number of months the child was in CFSA’s care based on its recorded entry date
and SSA’s selection date according to RPS.
Page 9 - Frederick M. Maurin


For two instances that occurred outside our audit period, two children were in CFSA’s
care for extended periods before it was selected as payee. One child was in CFSA’s
care for about 1 year and the other for more than 4 years. During these periods, we
estimate $39,783 in SSI ($36,900) and OASDI ($2,883) was paid to former payees
while the children were in CFSA’s care.

In addition, other overpayments may have occurred outside our audit period.

SSA’s policy states that the representative payee should turn over any conserved funds
or unused benefits to SSA when services as a payee terminate. 24 SSA’s policy also
states, “Title II and title XVI benefits must be used for the immediate or reasonably
foreseeable needs of the beneficiary.” 25 CFSA did not receive conserved funds for
these beneficiaries.

As of October 4, 2011, SSA explained it was reviewing the 10 instances to determine
whether former payees were entitled to some or all of the payments received. For
example, the beneficiaries may have returned home for a period. In addition, SSA
indicated there could be instances of possible misuse of the payments. On
October 7, 2011, a CFSA official stated that CFSA had implemented a process to
timely submit representative payee applications for SSA beneficiaries in its care.

SAFEGUARDS OVER BENEFICIARIES’ RECEIPTS

CFSA did not have adequate segregation of duties in recording and processing cash
receipts. The same person who received the paper checks also prepared the deposit
slip, deposited the checks, recorded deposits in CFSA’s records, and performed
reconciliations. No one person should control all key aspects of a transaction or
event. 26 SSA best practices for maintaining an effective representative payee
accounting system state that adequate separation of employees’ duties helps deter both
check fraud and employee theft. 27

While performing our review of internal controls, we found CFSA received a significant
number of beneficiaries’ Social Security payments by paper checks. For October 2009,
CFSA received paper checks for 21 beneficiaries for whom it served as payee;
however, by April 2011, CFSA was receiving paper checks for benefits belonging to
109 beneficiaries. CFSA staff stated it was their understanding that the SSA field office
had the payee’s bank account information and would automatically record the bank


24
     SSA, POMS, GN 00502.113 C.1. (January 30, 2009, updated October 13, 2011).
25
     SSA, POMS, GN 00603.001 A. (November 15, 2004).
26
  Government Accountability Office, Standards for Internal Control in the Federal Government,
AIMD-00-21.3.1, pp. 12, 14.
27
  SSA, Best Practices for Maintaining an Effective Representative Payee Accounting System -
Separation of Employee Duties. http://www.socialsecurity.gov/payee/best.htm
Page 10 - Frederick M. Maurin


information each time CFSA applied to be a child’s representative payee. Since CFSA
did not provide bank account information when it applied to be representative payee,
SSA issued paper checks for Social Security payments.

We discussed the use of paper checks for beneficiaries’ payments with CFSA staff, who
stated they had requested direct deposit for those beneficiaries receiving paper checks
as of September 26, 2011. According to CFSA staff, they provided SSA the names of
beneficiaries receiving paper checks and the payee’s bank account number. Staff
stated that, in the future, it would provide SSA the payee’s bank account number each
time it applied to become representative payee. In addition, staff discussed plans to
implement a new process where another office in the DC government would receive
and process any paper checks issued for Social Security benefits. Under the new
process, CFSA performed the bank reconciliation. SSA should verify whether CFSA
implemented this new process.

In October 2011, we discussed these issues with SSA representatives, who stated the
applicable field office received the request from CFSA, and staff would update
beneficiaries’ records with direct deposit information.

IMPROPER BANK ACCOUNT TITLE

CFSA had not titled the beneficiaries' collective checking account in a manner that
identified the beneficiaries as the owners and CFSA as the fiduciary. As of April 2011,
the beneficiaries' collective checking account was titled "Child and Family Services
Agency Benefits Account." In August 2009, an SSA site review of the payee reported
this deficiency concerning the account title to CFSA; however, CFSA did not take
corrective action at that time. If the bank account is improperly titled, the beneficiaries’
assets are at risk for loss. SSA policy states the collective account title must show that
the payee holds the account in a fiduciary capacity on the beneficiaries’ behalf. 28

On November 14, 2011, CFSA stated that the DC Government Office of Finance and
Treasury had changed the bank account title to “Child and Family Services Agency
Representative Payee for Social Security Beneficiaries.” SSA should verify CFSA’s
new bank account title.




28
     SSA, POMS, GN 00603.020 B. (June 5, 2008).
Page 11 - Frederick M. Maurin


CONCLUSION AND RECOMMENDATIONS
CFSA had effective safeguards over disbursement of Social Security benefits and used
Social Security benefits in accordance with SSA’s policies and procedures. However,
CFSA did not have adequate safeguards over benefit receipts, and it did not adequately
account for Social Security receipts in accordance with SSA’s policies and procedures.
CFSA could improve its performance as payee. In several instances, CFSA did not
report changes in beneficiaries’ circumstances to SSA and return the related
overpayments. In addition, CFSA did not timely apply to serve as representative payee
for beneficiaries in its care or have adequate safeguards over beneficiary receipts.
Lastly, we found CFSA’s bank account title did not conform to SSA’s policy.

We recommend that SSA:

1. Collect applicable overpayments from CFSA for the 29 beneficiaries we identified
   who were concurrently receiving SSI and Title IV-E payments, and if appropriate,
   collect additional overpayments that occurred before or after our audit period.

2. Instruct CFSA to (a) monitor beneficiaries’ resources and (b) notify the Agency when
   beneficiaries concurrently receive SSI and Title IV-E benefits.

3. Collect overpayments made to others for eight beneficiaries we identified who were
   in CFSA’s care, and if appropriate, collect additional overpayments that occurred
   before or after our audit period.

4. Instruct CFSA to notify the Agency when it does not receive applicable Social
   Security benefits for beneficiaries in its care.

5. Collect overpayments for the 13 beneficiaries we identified who had left CFSA's care
   and the payee did not repay the overpayments, and if appropriate, collect additional
   overpayments that occurred before or after our audit period.

6. Collect overpayments previously recorded as misuse concerning two beneficiaries
   that left CFSA’s care.

7. Instruct CFSA to (a) notify the Agency timely when a beneficiary is no longer in its
   care and (b) return benefit payments to SSA timely when no longer serving as
   representative payee for a beneficiary.

8. Collect the SSI overpayments for two beneficiaries who were in facilities that
   Medicaid paid more than 50 percent of care, and if appropriate, collect additional
   overpayments that occurred before or after our audit period.

9. Instruct CFSA to notify SSA timely when a beneficiary who is receiving SSI is
   (a) placed in facilities for 30 days or longer and (b) Medicaid pays more than
   50 percent of care.
Page 12 - Frederick M. Maurin


10. Determine whether payments for 10 beneficiaries in the care of CFSA before its
    selection as payee were appropriate, and if not appropriate, take corrective actions.

11. Encourage CFSA to apply promptly to serve as representative payee for children in
    its care.

12. Verify CFSA segregated duties for recording and processing cash receipts.

13. Encourage CFSA to establish direct deposit for all beneficiaries in its care.

14. Verify CFSA modified the titling of the beneficiaries' collective checking account in
    accordance with SSA policy.

AGENCY COMMENTS AND REPRESENTATIVE PAYEE COMMENTS
SSA agreed with our recommendations (see Appendix D), and CFSA provided
corrective actions for each issue discussed in our report (see Appendix E).




                                          Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – Representative Payee Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations

CFSA     Child and Family Services Agency

DC       District of Columbia

OASDI    Old-Age, Survivors and Disability Insurance

OIG      Office of the Inspector General

POMS     Program Operations Manual System

RPR      Representative Payee Report

RPS      Representative Payee System

SSA      Social Security Administration

SSI      Supplemental Security Income

U.S.C.   United States Code
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include: 1

•     Determine the beneficiary’s current needs for day-to-day living and use his or her
      payments to meet those needs.

•     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

•     Maintain accounting records of how the benefits are received and used.

•     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount.

•     Report any changes in circumstances that would affect their performance as a
      representative payee.

•     Provide SSA an annual Representative Payee Report to account for benefits spent
      and invested.

•     Return any payments to SSA for which the beneficiary is not entitled.

•     Return conserved funds to SSA when no longer serving as the representative payee
      for the beneficiary.

Be aware of any other income that Supplemental Security Income recipients may have
and monitor their conserved funds to ensure they do not exceed resource limits.




1
    20 C.F.R. §§ 404.2035 and 416.635.
                                                                                     Appendix C

Scope and Methodology
Our audit covered the period October 1, 2009 through September 30, 2010. To
accomplish our objectives, we:

•   Reviewed applicable Federal laws and regulations and Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.

•   Reviewed prior work performed by the Office of the Inspector General and SSA in
    the representative payee area.

•   Compared and reconciled the payee’s list of SSA beneficiaries in the District of
    Columbia’s Child and Family Services Agency’s (CFSA) care to a list obtained from
    SSA’s Representative Payee System.

•   Reviewed CFSA’s internal controls over the receipt and disbursement of Social
    Security benefits.

•   Randomly selected a sample of 50 beneficiaries from a population of
    231 beneficiaries who were in CFSA’s care during our audit period and performed
    the following tests.

     Compared and reconciled benefit amounts received according to CFSA’s records
      to benefit amounts paid according to SSA’s records.

     Reviewed CFSA’s records to determine whether benefits were properly spent on
      the individual’s behalf.

     Traced a sample of recorded expenses to source documents and examined the
      underlying documentation for reasonableness and authenticity.

•   Determined whether CFSA reported any changes or events for its beneficiaries that
    could affect the amount of, or entitlement to, Old-Age, Survivors and Disability
    Insurance or Supplemental Security Income benefits. 1

     We matched all children who received Title IV-E benefits, according to CFSA’s
      records, with our audit population.


1
  During our audit period, in addition to our audit sample, we found the following: 21 additional instances
where children received concurrent SSI and Title IV-E benefits, 7 additional instances where CFSA did
not receive Social Security payments for children in its care, and 4 additional instances of children who
left CFSA’s care.


                                                    C-1
•   Visited and interviewed 10 randomly selected beneficiaries to determine whether
    their basic needs were being met.

•   Obtained either Request to be Selected as Payee (Form SSA-11-BK) or other
    documentation that indicated SSA considered CFSA to be the representative payee
    for 10 beneficiaries and reviewed documentation to determine the completeness and
    appropriateness of the information provided.

•   Selected 30 beneficiaries to determine the completeness and appropriateness of the
    information provided on the Representative Payee Reports (Form SSA-6234).

•   Determined whether the organization was complying with its policies, and those set
    by SSA for protecting personally identifiable information.

We performed our audit in Baltimore, Maryland, and Washington, D.C., between March
and October 2011. We tested the data obtained for our audit and determined them to
be sufficiently reliable to meet our audit objectives. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                          C-2
                                                                    Appendix D

Agency Comments
February 17, 2012

Subject: Philadelphia Response - Signed Draft Report (A-13-11-11149) Audit No.
22011006, "The District of Columbia's Child and Family Services Agency, an
Organizational Representative Payee for the Social Security Administration'


Thank you for the opportunity to comment on the draft report of OIG Audit No.
22011006, "The District of Columbia's Child and Family Services Agency, an
Organizational Representative Payee for the Social Security Administration”. We fully
concur with the audit recommendations and have already begun working to implement
them.

If you have any questions regarding our response, please contact Bob Raughley of the
Center for Program Support at 215-597-0738 or Robert.Raughley@ssa.gov .



Frederick M. Maurin
Acting Regional Commissioner
Philadelphia Region
                                Appendix E

Representative Payee Comments
E-1
E-2
E-3
E-4
E-5
E-6
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division

   Florence Wolford, Audit Manager

Acknowledgments

In addition to those named above:

   Donna Parris, Auditor-In-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-13-11-11149.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
